<html>
<title> - A REVIEW OF FEDERAL MARITIME DOMAIN AWARENESS PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                          A REVIEW OF FEDERAL
                   MARITIME DOMAIN AWARENESS PROGRAMS

=======================================================================

                                (112-92)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                  U.S. GOVERNMENT PRINTING OFFICE
74-969                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman
DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Vice Admiral Peter Neffenger, Deputy Commandant for Operations, 
  United States Coast Guard......................................     4

                PREPARED STATEMENT SUBMITTED BY WITNESS

Vice Admiral Peter V. Neffenger..................................    19

                       SUBMISSIONS FOR THE RECORD

United States Coast Guard, inserts for the record:

        Long Range Identification and Tracking (LRIT) 
          International Data Exchange (IDE) Disaster Recovery 
          (DR) site..............................................    10
        Status of December 16, 2008, Notice of Proposed 
          Rulemaking.............................................    11
        Status of research of low-cost, nonintrusive 
          identification system for passenger vessels............    12
        Information about notice of arrival and notice of 
          departure..............................................    16

[GRAPHIC] [TIFF OMITTED] T4969.001

[GRAPHIC] [TIFF OMITTED] T4969.002

[GRAPHIC] [TIFF OMITTED] T4969.003

[GRAPHIC] [TIFF OMITTED] T4969.004

[GRAPHIC] [TIFF OMITTED] T4969.005

[GRAPHIC] [TIFF OMITTED] T4969.006

[GRAPHIC] [TIFF OMITTED] T4969.007

[GRAPHIC] [TIFF OMITTED] T4969.008



                      A REVIEW OF FEDERAL MARITIME
                       DOMAIN AWARENESS PROGRAMS

                              ----------                              


                         TUESDAY, JULY 10, 2012

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:59 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Frank LoBiondo 
(Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order.
    The subcommittee is meeting this morning to review the 
status of the Coast Guard Maritime Domain Awareness programs.
    The Coast Guard operates a broad array of systems and 
sensors to gather data to enhance the Service's awareness of 
activities in the maritime domain. At a time when Coast Guard 
assets and personnel are stretched very thin, Maritime Domain 
Awareness programs can act as a critical force multiplier, but 
that can only happen if the programs are properly implemented 
and information is integrated and distributed for action at all 
levels of the Coast Guard. Unfortunately, that does not seem to 
be the case.
    I remain skeptical as to whether the Coast Guard has ever 
looked at all these systems in totality to determine whether 
they are providing the data in an efficient manner. Each system 
was designed for a specific mission goal and developed 
independently of each other. As a result, many systems provide 
the Coast Guard duplicative information.
    For instance, most large vessels are required to carry 
Automatic Identification System transponders in addition to a 
Long Range Identification and Tracking System to track their 
movements. The Coast Guard proposes that fishing vessels carry 
AIS transponders in addition to vessel monitoring system units 
they already are required to carry and operate.
    Finally, the Department of Homeland Security's plan for 
small vessel security proposes to require boat owners to buy 
new technologies to track their vessels. Meanwhile, the 
Department proposes to develop radar systems to do the same 
thing.
    Each of these requirements and proposed mandates are and 
will be very expensive and, in some cases, prohibitive for 
vessel owners. Yet it is unclear how they will benefit safety 
and security in our ports and waterways if the Coast Guard 
lacks the ability to properly integrate and analyze the data.
    I am concerned that after 10 years and billions of dollars 
the Coast Guard still lacks the infrastructure to sufficiently 
tie these different systems into one common operating picture. 
Given the scant resources the Coast Guard plans to devote to 
these programs over the next 5 years, I question whether the 
Service remains committed to fully integrating these programs.
    For example, the Coast Guard appears to be backing away 
from its stated goal of providing interoperability between all 
Coast Guard assets and shore-based facilities. The GAO recently 
found that the Service only intends to install an advanced 
communications system on less than half of its recapitalized 
assets.
    Maritime Domain Awareness is a critical tool to maximize 
the Coast Guard's capabilities to safeguard American interests 
in U.S. waters and on the high seas. However, the duplicative 
mandates and the lack of progress in delivering a common 
operational picture have been a major source of frustration. 
Rather than continuing to devote time and money on programs 
that do not function as intended, it may be time to reevaluate 
the MDA strategy.
    I am anxious to hear from the Admiral on what he thinks the 
future holds for MDA programs and how we can best move forward 
to ensure taxpayers getting a good return on the very 
significant investments they have made on the Coast Guard's MDA 
programs.
    I want to thank Admiral Neffenger for appearing today and 
congratulate him on his recent promotion, and I look forward to 
hearing his testimony.
    With that being said, I would now like to yield to Mr. 
Larsen.
    Mr. Larsen. Thank you, Mr. Chairman, and thank you for 
convening this morning's hearing to evaluate and assess the 
Coast Guard's important Maritime Domain Awareness activities.
    Maritime Domain Awareness, or MDA, is defined by the Coast 
Guard as our understanding of anything in the global maritime 
environment that can impact the security, economy, or 
environment of the United States. The maritime domain remains 
critical to the Nation's security and economy, especially the 
maritime transportation system.
    The maritime transportation system has over 300,000 square 
miles of waterways, 95,000 miles of shoreline, 10,000 miles of 
navigable waterways, and 361 ports of call. That includes 8 of 
the world's 50 highest volume ports.
    Aside from infrastructure, over 60 million Americans are 
employed within 100 miles of our coasts and contribute over $4 
billion annually to the Nation's economy. These jobs rely on 
the security that comes with Maritime Domain Awareness, and I 
am pleased that several positive steps have been taken since 
2002 to alert the Coast Guard and other Federal agencies of 
potential threats arising from beyond our shores.
    Congress has expanded significantly the amount of data that 
commercial vessels must submit to the Coast Guard regarding 
their cargoes, registries, crews, and routes. For example, new 
international vessel tracking programs such as the Automatic 
Identification System and Long Range Identification and 
Tracking System have been implemented. We have also enhanced 
our situational awareness by requiring most commercial vessels 
to report to the Coast Guard their arrival times at U.S. ports 
at least 96 hours in advance. Additionally, integrated 
operation centers have been established to better coordinate 
and facilitate information sharing between the Coast Guard and 
other Federal, State, and local law enforcement agencies.
    The end result is that more assets and resources are now 
devoted to MDA. These resources are more sophisticated, better 
coordinated, and more capable of providing actionable 
intelligence concerning the maritime domain.
    The question is whether these actions have made our shores 
more secure from potential maritime threats. Are our 
communities, industries, and infrastructure safer?
    The assumptions underlying our assessment of maritime 
threats and our strategies to address these risks have received 
their share of criticism over the years. The Government 
Accountability Office, the Department of Homeland Security 
Inspector General, and the RAND Corporation have all raised 
legitimate concerns, especially regarding the threat 
characterization of small vessels; and unlike after September 
11, 2001, when resources were freely available to address 
deficiencies in Homeland Security, we operate now in a much 
more difficult budget environment. Present fiscal constraints 
leave us little choice but to examine carefully the assets and 
resources we devote to MDA, especially to the Coast Guard, 
whose budget is already stretched thin.
    I have said this before, and I will keep saying it. We 
cannot expect the Coast Guard to do more with less. The sad 
reality is that the Coast Guard is doing less with less, and 
MDA is no exception. The Coast Guard needs to maximize any 
investment in new technologies, new programs, and human 
resources to fulfill Coast Guard missions and whenever possible 
leverage those capabilities to support MDA. But we also need to 
ensure that those MDA programs and activities within the Coast 
Guard that remain funded are absolutely essential and that we 
eliminate MDA activities that are redundant or unnecessary or 
are an unnecessary drain on Coast Guard resources.
    Admiral Neffenger confronts this dilemma on a daily basis 
as the Coast Guard's Deputy Commandant for Operations. Admiral, 
I commend you for your efforts in balancing these competing 
demands within the Coast Guard. I look forward to hearing from 
you this morning about how we might best maintain the quality 
of Maritime Domain Awareness provided by the Coast Guard in an 
era of constrained Federal budgets.
    In closing, no longer can we simply ask how much MDA can we 
afford. Rather, we need to ask ourselves how much MDA can we 
afford not to have. To a large extent, the shape and 
effectiveness of our future maritime security will ride on how 
we answer that question.
    Thank you. I yield back.
    Mr. LoBiondo. Thank you, Mr. Larsen.
    Today, our witness is Coast Guard Vice Admiral Peter 
Neffenger, Deputy Commandant for Operations.
    Admiral, you are recognized for your statement.

TESTIMONY OF VICE ADMIRAL PETER V. NEFFENGER, DEPUTY COMMANDANT 
           FOR OPERATIONS, UNITED STATES COAST GUARD

    Admiral Neffenger. Thank you, Mr. Chairman.
    Good morning, Chairman LoBiondo, Ranking Member Larsen, 
distinguished members of the subcommittee, and thank you for 
the opportunity to testify today and for your continued 
advocacy, interest, and oversight of the Coast Guard's Maritime 
Domain Awareness efforts.
    Having this past month assumed the role of Coast Guard 
Deputy Commandant for Operations, I am pleased to update you on 
the Coast Guard's approach to Maritime Domain Awareness and the 
improvements we have made toward achieving MDA goals.
    As the Deputy Commandant for Operations, my primary 
responsibility is to set the strategic direction for the Coast 
Guard's mission to ensure the safety, security, and stewardship 
of the Nation's waters. This includes the very important matter 
of Maritime Domain Awareness. I have a brief opening statement 
and would like to submit my written testimony for the record.
    During my previous tours as an operational field commander, 
I have observed our Nation's MDA capabilities improve over 
time. I was Commander and Captain of the Port of Sector Los 
Angeles-Long Beach from 2003 to 2006, Commander of the 9th 
Coast Guard District in the Great Lakes and Saint Lawrence 
Seaway Region from 2008 to 2010, and then most recently the 
Deputy National Incident Commander for the BP Deepwater Horizon 
oil spill response.
    In each of these roles, I thought about what it meant to 
have effective Maritime Domain Awareness on a daily basis and 
how important it is in order to meet our mission. Whether 
looking for an oil sheen, a drug trafficker, or a person in 
distress, you need effective awareness to deliver the right 
capabilities to the right places at the right times with the 
right combinations of people and partners. This requires a 
combination of technology, sound regulatory regimes, and solid 
partnerships.
    So, as you said, Mr. Chairman, we must not only understand 
the various systems and capabilities but also how they operate 
together as a whole; and our understanding of this has evolved 
over time. MDA is much more than technology, although this is 
an important enabler. In addition to having a picture of 
maritime activity, I need to understand that picture, know who 
the various stakeholders are at public and private levels, and 
understand how the system operates together; and this is a top 
priority for me as I enter this assignment.
    We must also share a common definition of MDA. The National 
Strategy for Maritime Security spells it out as follows: The 
effective understanding of anything associated with the 
maritime domain that could impact the safety, security, 
economy, or environment of the United States.
    That is a tall order. But as lead Federal agency for 
maritime safety, security, and stewardship, the Coast Guard has 
extensive authorities, dual status as a military and law 
enforcement agency, and is a member of the intelligence 
community. These traits suit us uniquely to take a national 
leadership role in developing Maritime Domain Awareness.
    There are also many technical and regulatory pieces 
involved in MDA, many of which you have mentioned, including 
common operational picture, Automatic Identification System, 
the Long Range Identification and Tracking System, the 
Nationwide Automatic Identification System, interagency 
operation centers, and the various regulatory components such 
as advance notices of arrival, among others. And so if I could 
just highlight a few of these.
    The current common operational picture integrates the Coast 
Guard with Department of Defense and intelligence community 
partners through DOD's Global Command and Control System, also 
known as GCCS. While this is an effective system, access is 
necessarily limited to Federal stakeholders with appropriate 
clearances. As such, strategically, I intend to continue moving 
the Coast Guard towards a Web-based delivery of information to 
partners at all levels in our seaports.
    The Automatic Identification System enables maritime 
authorities to identify and locate large commercial vessels. 
Our current proposed AIS and notice of arrival regulation will 
improve MDA by covering smaller commercial vessels and 
requiring notices of departure from U.S. ports.
    The global Long Range Identification and Tracking System 
became operational in 2008, and today more than 100 flagged 
States participate. The Coast Guard established the national 
data center in the United States to serve as the central 
collection point for ship reports received from U.S.-flagged 
vessels. We have transferred responsibility for the 
International Data Exchange to the European Maritime Safety 
Agency but continue to maintain backup capability for this 
service in the United States.
    Overall, the LRIT program is functioning well and provides 
useful information on vessel arrivals and operations offshore, 
and it remains an essential component of our MDA efforts.
    Domestically, we have interim Nationwide Automatic 
Identification System capability in 58 major ports and coastal 
areas. This will migrate to permanent capability over the next 
several years and will be collocated with Rescue 21 equipment 
to leverage existing investments.
    NAIS complements the Long Range Identification and 
Tracking. Information from each system as well as from our 
advanced notices of arrival and other national technical means 
enhance our MDA domestically and overseas, and in fact 
information from these systems helped us to map locations of 
commercial vessels and to target relief efforts during the 2010 
earthquake response in Haiti.
    At the Department level, interagency operations centers 
provide partners at high-priority ports with a framework to 
plan, coordinate, and execute maritime operations in real time. 
WatchKeeper is a collaborative Web-based information system 
designed to provide shared awareness of port conditions, port 
assets, and coordination of operational activities among port 
partners. It allows coordination across operational networks 
without the physical collocation of watchstanders, and at 
present is up and running at 18 of our 35 sectors, with the 
remainder scheduled for installation by the end of fiscal year 
2014.
    Perhaps most important, underpinning our technical and 
regulatory regimes are critical partnerships. At the sector 
level, area maritime security committees bring together 
partners from Federal, State, local, and private entities to 
improve communication and information sharing; and these 
partnerships have strengthened as they have matured and will 
remain a top priority in our seaports. And of course we have 
longstanding international partnerships as well.
    Finally, to speak to overarching governance, I serve as 
senior chairperson of the Coast Guard's executive team charged 
with improving MDA and information sharing. I will convene the 
team for the first time under my direction this month and 
intend to provide robust oversight of our ongoing MDA efforts.
    In closing, I am grateful for your advocacy, support, and 
interest in the Coast Guard and our priorities with MDA. Thank 
you again for the opportunity to testify, and I look forward to 
your questions.
    Mr. LoBiondo. Thank you, Admiral.
    The Coast Guard collects data on a vessel's identification, 
position, crew, voyage history, and other matters through 
several systems that are supposed to fuse together into a user-
defined common operational picture, as we understand it. Does 
the Coast Guard have the infrastructure and the capabilities to 
bring all of these different MDA systems together to produce a 
comprehensive common operational picture?
    Admiral Neffenger. With respect to the common operational 
picture, I think I mentioned that we currently have a system 
that we are using for the DOD that provides us with a fairly 
comprehensive picture of what is operating in the oceans, and 
we gather that picture through both national technical means as 
well as through things like Long Range Identification and 
Tracking.
    As you know, the goal is to have a user-defined picture in 
every seaport--every major seaport of this country, and to some 
extent we do have that. It does not fuse and fully integrate 
all information at this point. WatchKeeper will ultimately--we 
hope to ultimately migrate WatchKeeper, to evolve WatchKeeper 
to the point where you can do that.
    Some of the challenges associated with that are the vast 
volume of information. So what we have discovered over time--
and I can speak from my own experience on this--is that if you 
simply just load a picture with a bunch of information without 
an ability to sort and somehow delineate or discriminate within 
that, it becomes challenging for the WatchKeepers, for the 
watchstanders to understand what they are looking at and 
certainly challenging for local operational commanders.
    So what we tried to do is integrate the most critical 
information initially into our various common operational 
pictures that we are pushing out to our ports through our 
current DOD-sponsored COP as well as WatchKeeper and then 
evaluating how to best integrate additional information, 
whether that be sensor information from camera systems in 
ports, photographs of vessels, and the like.
    So I suppose the short answer to your question, sir, would 
be that I don't think our common operational picture is as 
fully integrated as I would like to see it in the future. I 
think it is much better than it has ever been, and it is 
providing our operational commanders with a much more complete 
picture of what is happening in their individual port 
environments at geographic regions than they had before. The 
challenge is going to be in integrating the various individual 
types of sensors and feeds that each port has and in 
determining, you know, what best to put in there and also to 
bring into the picture more of our local port partners.
    Mr. LoBiondo. So it is safe to assume this will be a 
priority of yours?
    Admiral Neffenger. Absolutely. Yes, sir. In fact, it is one 
of the questions that I have already asked of my staff.
    Mr. LoBiondo. And could we expect--we would like to hear 
back from you, recognizing you are relatively new in putting 
this together, of what are your kind of views. I want to give 
you a little bit of time, but we would like to come back and 
without waiting for another hearing or waiting 6 months or a 
year, because I think this is pretty important information.
    Admiral Neffenger. Yes, sir, I would be happy to come back 
and brief the committee at anytime.
    Mr. LoBiondo. OK. The Coast Guard has spent over 10 years 
and almost $700 million to build the C4ISR system for 
deployment on its recapitalized vessels and aircraft. How this 
highly touted program is supposed to have tremendous 
capabilities and the goal of the system was to deliver a C4ISR-
equipped asset which can collect and process MDA information 
from a variety of inputs and share that data with other Coast 
Guard assets and shore-based facilities in a common operating 
picture, which I think is just outstanding for what we are 
looking to do.
    But the GAO recently found that the Coast Guard apparently 
no longer plans to deploy the system on all recapitalized 
assets and is backing away from asset-to-asset data sharing. So 
the question is, to you, Admiral, is a fully interoperable 
C4ISR system installed on each Coast Guard asset still a goal 
for the Service? And, if not, why not?
    Admiral Neffenger. Yes, sir, that is still a goal for the 
Service. Although, again, what we have learned over time is 
that one of the challenges associated with the program I think 
as it was originally envisioned is the rate at which technology 
refreshes and the rate at which certain technical systems 
become obsolete. Those are expensive systems, as you know, and 
you have already mentioned the amount of money that we have put 
into it.
    Many of those acquisition baselines were developed in more 
favorable fiscal environments, so what we had to do, given what 
we believe will be the fiscal constraints into the future, is 
look at this again, determine whether we need to adjust our 
strategy going forward. But the goal is still to have complete 
interoperability with the ability to push the picture.
    We are some measure along that road already. I would hate 
to put a percentage on it, but we do have a significant amount 
of capability to move information amongst our larger assets, 
aircraft, and cutter fleet. But we are not where we had 
originally envisioned the system being at this point, although 
it is still a goal of mine to get us there, sir.
    Mr. LoBiondo. Last question for now. In testimony before 
this subcommittee in 2009, the Coast Guard stated it was 
working with a commercial satellite provider to test the 
feasibility of pushing AIS coverage out to a range of 2,000 
nautical miles. The Coast Guard informed the subcommittee it 
hoped to have this system operational by 2010. Can you give us 
the status of the initiative?
    Admiral Neffenger. Yes, sir. We actually did a proof of 
concept with a commercial satellite provider in 2010 to look at 
whether or not the capability could work. We found that it did 
work. But in the course of doing that we also discovered that 
we have much more capability through national technical means 
as well as through current LRIT information that we are getting 
that we don't think it is--we no longer have a program for 
putting our own satellite up. We think that there are less 
expensive ways to do it, whether that be through ultimately 
leasing some commercial space on commercial satellites. But the 
truth is that we are currently getting a significant amount of 
information, much more than we expected to get, through these 
other means. So we don't have a program right now to pursue our 
own Coast Guard satellite system, sir.
    Mr. LoBiondo. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral, back to the C4ISR, I understand that with your 
answer you say you are still committed to making investments, 
but from what I understand of the progress of the C4ISR 
investments, there are eight separate segments. You are on 
segment two in the Coast Guard. That leaves six left. You are 
anticipating about $40 million a year over the next 5 years for 
C4ISR investment. Some of that is going to get chewed up by the 
technology churn that you noted, leaving something less than 
$20 million to meet a goal of $681 million or to meet a goal to 
implement six more segments.
    I don't see how you do that. I don't see how that happens 
given the budget constraints, given the challenges with 
turnover and technology. And so is it realistic to expect the 
Coast Guard will upgrade all of its C4ISR capabilities for the 
full eight segments, given this budget environment?
    Admiral Neffenger. As you said, sir, I think the budget 
environment makes it challenging. Those programs, as you know, 
as I said, were developed during a time of greater fiscal 
certainty or what we expected to be greater fiscal certainty. I 
don't know what the current plan would allow, given where we 
may be with the budget over the next few years.
    What I can promise you, however, is that that is a question 
that I have to ask and get detailed answers to as I move into 
this role, and I intend to explore that in more detail. And I 
would be happy to come back to you as I learn more about that 
myself and figure out where we are going with that, with our 
technology refresh, sir.
    Mr. Larsen. Yes, please do that. Please do that.
    On the question of coordination and dissemination of vessel 
tracking data, as much as I want to commend the IMO and the 
Coast Guard for initiating multiple vessel tracking programs, 
some critics have expressed concern about some of the longer 
range tracking data being gathered as duplicative or redundant 
and therefore may be adding little value for the extra costs.
    First, do you agree with that criticism? Second, what is 
the distinction between the AIS and the LRIT? And, third, what 
has the Coast Guard done to address the criticism?
    So do you agree with the criticism about redundancy? How 
would you distinguish between AIS and LRIT data? And what has 
the Coast Guard done to address the criticism, sir?
    Admiral Neffenger. Well, I mean, I understand concerns 
about redundancy. There is a certain amount of redundancy that 
is nice to have in a system, especially when you are looking 
for awareness. If you go back to the definition that says you 
want effective awareness of everything that is happening, 
sometimes you want to make sure you can verify that awareness 
through multiple sources. So I think a certain amount of 
redundancy actually improves the health of the system and makes 
the system more reliable, more dependable, and more 
sustainable.
    With respect to the differences between AIS and Long Range 
Identification and Tracking, AIS is a VHF-based system, so it 
is primarily line of sight, although it can be bounced beyond 
line of sight through satellite connection. Long Range 
Identification and Tracking is a satellite-based system. It 
typically plays off of or reads off of something called the 
global marine distress and signaling system transceivers that 
are on board large commercial vessels, applies only to SOLAS-
based vessels, as opposed to AIS, which applies to more than 
just our SOLAS-based vessels and is carried on other vessels, 
and in fact our rulemaking would extend it to others. So the 
difference is in the way in which they transmit information and 
then the types of vessels that would be required to carry it.
    But with respect to redundancy, I would argue that the 
relative cost, particularly for large commercial vessels, is 
minimal to add one or the other systems to the vessel. They are 
both required for different reasons. AIS was originally 
envisioned as a collision avoidance system. So what we are 
doing is we are leveraging a system that was originally 
designed to tell each other where you were in a more robust way 
and finding out that you can actually gain good position 
information out of it.
    And then a certain amount of redundancy I like as an 
operational commander to say--to know if, for example, without 
any malintent somebody's AIS system isn't transmitting or 
somebody's LRIT isn't transmitting, I have got another means of 
identifying that vessel, and it just becomes a backup system.
    Mr. Larsen. What steps has the Coast Guard taken to reduce 
the clutter in tracking data in order to produce actionable 
intelligence?
    Part of the problem that we always have is we are 
collecting all this data, but there is no effective way to sift 
through it to get something to act on. So what steps has the 
Coast Guard taken to reduce that clutter and to sift through 
the data so that you have something that you can act on in a 
timely manner?
    Admiral Neffenger. You have hit on a key to Maritime Domain 
Awareness effectiveness. As I said before, just a picture of 
dots on a screen doesn't tell you much. But what we have 
learned over the past 10 years or so in particular that we have 
been collecting data is you learn a lot about who is operating 
in the system. So some of the way you sift through that data is 
by just eliminating known trusted operators. So you can just 
erase them from the screen or just layer them out of the 
screen.
    The goal is ultimately to be able to generate a picture for 
yourself, whether that be a common operational picture or an 
understanding picture that says, all right, I know who the 
trusted operators are, I know how the system normally works, I 
know what I expect to normally see in there. Remove all of that 
and show me what is left. And now I will pay attention to what 
is left.
    That is sort of in a high-level answer as how we do that. 
There is some interesting technical ways in which that is done, 
and we would be happy to show you that in some detail at some 
time if you would be interested.
    Mr. Larsen. Yeah, that would be interesting.
    With regards to the management of the LRIT data, it is my 
understanding the Coast Guard established the national data 
center to serve as a central collection point for ship reports 
received from U.S.-flagged vessels as required by the IMO LRIT 
regulation. In addition, the Coast Guard established the 
International Data Exchange to manage the global data. The 
Coast Guard maintained the IDE on an interim basis and then 
transferred that management to the European Maritime Safety 
Agency.
    That being the case, can you explain why the Coast Guard 
continues to maintain an alternative IDE site for the 
international community? How much does that cost? Is that 
itself redundant and duplicative? And, given those questions, 
why does the Coast Guard continue to maintain an alternative 
site?
    Admiral Neffenger. To your very last point, I think that we 
will look at whether it makes sense to do that for the long 
term.
    I think the initial feeling was let's make sure that the 
European Maritime Safety Agency manages the site effectively 
and that it operates effectively for our purposes. So that was 
part of it.
    I don't know the cost off the top of my head. I will get 
that for the record for you, sir, and find out what that has 
cost.
    [The information follows:]

        Direct cost associated with the U.S. Coast Guard 
        operating and maintaining the Long Range Identification 
        and Tracking (LRIT) International Data Exchange (IDE) 
        Disaster Recovery (DR) site is $35,000 per year in 
        recurring annual support costs and software licenses.

        The Coast Guard maintains the (alternative) LRIT IDE DR 
        site to ensure continuous uninterrupted operation of 
        the International LRIT System during any scheduled or 
        unscheduled outage of the permanent LRIT IDE operated 
        by the European Maritime Safety Agency. By doing this, 
        the U.S. meets the security, safety, environmental 
        protection, and search and rescue goals in accordance 
        with SOLAS Chapter V/19-1.

    Admiral Neffenger. And then I need to look at the actual 
agreement that we entered with the European Maritime Safety 
Agency to see what it puts us--if anything, what kinds of 
requirements it puts on us for maintaining that into the 
future.
    But I know the initial concern was to have capabilities 
still there in the event the European Maritime Safety Agency 
system failed for some reason. I can answer those other 
questions as I dig more deeply into it, and I will get back to 
you with those, sir.
    Mr. Larsen. Please do so.
    Finally, on the AIS rulemaking, the Coast Guard published a 
Notice of Proposed Rulemaking on December 16, 2008, to expand 
the carriage requirement to carry AIS transponders to certain 
commercial vessels of less than 300 gross tons. It has been 
over 3\1/2\ years since the Coast Guard published the NPRM. How 
does the Coast Guard--sorry, when does the Coast Guard intend 
to publish a final rule?
    Admiral Neffenger. Well, the rule is in final clearance 
now; and as soon as it clears, we will publish the rule, sir.
    Mr. Larsen. When do you anticipate it will clear?
    Admiral Neffenger. I don't know exactly when. I know that 
it is in final clearance at this point, and we are just waiting 
for that to come through, sir.
    Mr. Larsen. And who is responsible for final clearance?
    Admiral Neffenger. Well, it runs through the 
administration. So it is through the clearance process in the 
administration at this point.
    Mr. Larsen. So somewhere in the bowels of the White House?
    Admiral Neffenger. But I can get you a specific answer for 
where that is.
    [The information follows:]

        This rulemaking project remains in final agency 
        clearance. Once cleared, it will be formally submitted 
        to the Office of Information and Regulatory Affairs 
        (OIRA). Given the complexity of the rule and the 
        potential costs that would be imposed on the maritime 
        public, a timetable for the formal submission of the 
        rule to OIRA cannot be provided at this time.

    Mr. Larsen. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Thank you, Admiral, for being here today, sir. Appreciate 
you being here and thank you for all the great things that the 
sailors and airmen of the Coast Guard do on a daily basis that 
none of us know about. So thank you very much for that.
    Sir, the Department of Homeland Security released a Small 
Vessel Security Strategy in 2008 to address the risks 
associated with potential use of small recreational vehicles to 
stage an attack on the United States or U.S. interests. 
Everybody is keenly aware of USS Cole and what Commander Kirk 
Lippold had to go through.
    In January of 2011 DHS released a Small Vessel Security 
Strategy Implementation Plan. What is the Coast Guard doing to 
monitor the potential risks emanating from small vessels in 
U.S. ports?
    Admiral Neffenger. Well, that fits squarely into that 
question of Maritime Domain Awareness. So some of what we have 
done are the things that we have been doing for sometime now, 
which is every sector commander, port commander, every local 
Coast Guard office is required to understand who is operating 
in their ports. So it begins with that understanding: What does 
normal look like in my port? What kind of marinas do I have? 
Who operates out of those marinas? Who owns the marinas? Who 
manages the marinas? And so forth.
    We use our local small boat stations, our auxiliary. We 
bring those people into our area maritime security committees. 
So there is a governance piece associated with this. That is 
where it starts. Obviously, not the final answer, because you 
have still got potential bad actors out there.
    The second piece is to continue to work with the States for 
more robust oversight of boating registration and more robust 
reporting of boating registration. We have got some ways to go 
yet, although we have come a long way on that score.
    And then, ultimately, it is how do you balance the 
requirement to know where vessels are with the very real 
pressures to maintain low costs for operators; and, of course, 
there are some of the privacy concerns and others that people 
have with respect to requiring registration and the like.
    Mr. Cravaack. The Coast Guard has gone through an 
implementation plan that calls for research for a low-cost, 
nonintrusive identification system for passenger vessels; is 
that correct?
    Admiral Neffenger. Yes, sir.
    Mr. Cravaack. OK. What is the current status of that 
research, sir?
    Admiral Neffenger. That--again, I haven't got an answer to 
that question for you today, but I will get that for you, sir.
    Mr. Cravaack. OK, I understand.
    [The information follows:]

        Current studies and testing include transponder-based 
        systems, particularly the Automated Identification 
        System (AIS) and Radio Frequency Identification (RFID) 
        technologies, to enhance the information available to 
        the U.S. Coast Guard while performing law enforcement 
        operations. The research has provided an initial test 
        of the feasibility of integrating AIS, RFID, and radar 
        signals to improve maritime domain awareness.

        Ongoing research on technical features of high-
        frequency surface radar for vessel tracking has been 
        extended to focus on small vessels. This work leverages 
        existing deployed coastal radar systems by refining the 
        ways signals are processed, as well as combining the 
        information these signals yield with other data about 
        observed vessels, and making it available in useful and 
        appropriate ways to Department of Homeland Security 
        personnel for operational purposes.

        As this research proceeds, it will be possible to 
        estimate the effectiveness of systems that incorporate 
        the capabilities of these technologies. The research 
        effort is sensitive to potential deployment costs; as a 
        result, it will include quantitative information about 
        cost-effectiveness and the overall contribution of 
        these technologies as awareness and defense elements to 
        the Department of Homeland Security's Small Vessel 
        Security Strategy.

        Amplifying information is contained in the Coast 
        Guard's September 7, 2012, report to Congress titled: 
        ``Small Boat Attack Mitigation Efforts.''

    Mr. Cravaack. If the Government--if we are planning to have 
a nonintrusive type of vessel identification system to track 
vessels, what is the point, then, of having--you might not be 
able to answer this question, but what is the point of then 
having small vessel owners install an AIS system?
    Admiral Neffenger. Well, again, going back to the idea that 
not all redundant systems are necessarily bad, it depends on 
how that redundancy plays into an overarching understanding of 
the system and feeding you information.
    My understanding is that we would not be requiring AIS on 
absolutely everybody out there. You have still got some pretty 
small operators and some small craft that wouldn't be required 
to have that. And so a combination of a nonintrusive system, 
which might be more passive, less ability to spoof the system, 
if you will, or to take advantage of the system, combined with 
one where you have trusted operators, people who say I am 
putting this on board, I am operating it, it kind of gives you 
that ability to do a little bit of a cross-check among 
yourselves. So I think there is some value to thinking about 
some systems that give you the same kinds of information but 
from different sources.
    Mr. Cravaack. Sir, from your position, what keeps you up at 
night? What do you think is the biggest threat to our global 
maritime situation?
    Admiral Neffenger. Well, I think getting to that perfect 
state of effective awareness of what is operating. I don't know 
that we will ever get there, but, you know, that is a big ocean 
out there, and there is a lot of people operating in it. And I 
think that it is not so much that it keeps me awake at night, 
but it really keeps me thinking at night as to how--you know, 
what is the most effective way to understand what is happening 
in a way that tells me more than just what is out there? I 
mean, that is a piece of information. But what I really want to 
know is what is it doing out there, who can I trust, who are 
the people operating it, where are they going, and how are they 
connected to the various parts of the world where people put 
things on vessels and send them our direction?
    Because ultimately what you are trying to do is find that 
one or two, you know, real bad actors out of the, you know, 
50,000 or 60,000 or so really good actors out there, and that 
is a challenge. I used to think about that every day when I was 
sitting in Los Angeles and Long Beach and I would see 13,000--
at the time it was 13,000 actual containers a day that were 
coming in the port, and that kept me up at night trying to 
think about, you know, how do you have any idea what is coming 
in.
    So I think the trick is you have got to know a lot about 
the system. Going back to Chairman LoBiondo's earlier point, 
you really have to understand how all the pieces come together 
to paint a picture of what looks like normal in the 
environment.
    Mr. Cravaack. All right. Thank you again, Admiral, and I 
will yield back.
    Mr. LoBiondo. Master Chief Coble.
    Mr. Coble. Thank you, Mr. Chairman. I am sorry I am late. I 
had two other hearings simultaneously going on.
    Admiral, good to have you with us this morning.
    Admiral, under current law, as you know, the Department of 
Homeland Security is required to establish interagency 
operation centers in all high-priority U.S. ports. However, at 
this time I am told that less than 10 such centers exist 
nationwide.
    Let me put a three-part question to you, Admiral: Is this 
still a priority for the Coast Guard, A; B, do you have a 
strategy to establish joint operations centers in all Coast 
Guard sectors; and, C, what level of resources would be 
necessary to accomplish this?
    Admiral Neffenger. Thank you, sir, and good morning.
    With respect to IOC priority, it is still a priority for 
us, but let me tell you about how my thinking has evolved with 
respect to integrated operations centers. I think the concept 
is absolutely valid. If you don't have people talking to one 
another in a geographic region, people who have like 
responsibilities or overlapping like responsibilities and who 
have generally the same interests in the safety, security, or 
stewardship concerns that you do, then you run the risk of, at 
best, duplicating efforts or, at worst, working counter to one 
another.
    So that was what I think was some of the thinking driving 
operations centers--integrated operations centers to begin 
with.
    Now, how my thinking has evolved over time is that I think 
in some locations that means you have to be collocated 
physically, and that is possible to do, particularly in those 
very traditional port environments where everyone seems to be 
in the same general geographic location. But I think that it is 
possible to do that virtually in some locations and sometimes 
more effectively virtually.
    I think about my time up on the Great Lakes. It would be 
very challenging there to do one or two integrated operations 
centers that could manage that whole system. Because from the 
perspective of the Great Lakes, that is a system that you care 
about. You almost have to think of it as a port system, and you 
want a bigger picture of how that goes. So, in that case, it is 
tough to figure out where you actually put one that can manage 
that system. So there is a virtual piece to that. So I think 
that there is a combination of both physical collocation as 
well as virtual collocation through software and looking at the 
same picture.
    So where are we with respect to that? I think I mentioned 
before, fully integrating all of that information has been a 
challenge. We are about halfway through our implementation of 
the software piece of that integrated operations center. That 
is called WatchKeeper. So 18 of our 35 sectors. We have about 
10 locations where we have got physical collocation.
    Again, with the challenges we are facing--and these are 
not--this is not meant to be an excuse. It is simply a 
statement of fact as I dig into this. Interagency agreements 
are a little bit challenging. Sometimes it is hard to get 
people as they are facing budget cuts to continue to put people 
into those centers. They see that as a reduction of a 
capability elsewhere. So I think it is a matter of moving 
enough capability into those collocated centers to have it not 
feel as if you are being asked to staff two different places at 
one time.
    So some of those agreements are more challenging, I think, 
than were envisioned, and some of the longer term commitments 
as people face budget crisis and start to look to cut back 
certain staff overhead can become a bit of a challenge.
    That said, I know that our port captains, our captains of 
the port, our sector commanders, working through their area 
maritime security committees, are doing some pretty significant 
work with respect to maintaining the connections that they need 
to maintain for sharing of information.
    So I think the information sharing piece is coming along 
well. It is not ultimately where I would like to see it. And I 
think the question with respect to how many of those physical 
collocation centers is still open in my mind, sir.
    Mr. Coble. Thank you, Admiral.
    Admiral, you may not want to insert your oar into these 
waters, but do you want to venture a guess as to the level of 
resources that would be needed? And you may not be able to do 
that.
    Admiral Neffenger. Well, I think it is going to be 
challenging right now to put a dollar figure on it. What we are 
going to focus on right now is getting the software piece 
right. Because no matter what we do with respect to actual 
physical centers, you have got to have a backbone for sharing 
information. So we are putting efforts into that WatchKeeper 
software program, and then we will continue to work the centers 
that are currently existing and look to see what we have to 
identify for the future.
    Mr. Coble. Thank you, Admiral, for being with us.
    Yield back, Mr. Chairman.
    Admiral Neffenger. Thank you, sir.
    Mr. LoBiondo. Mr. Landry.
    Mr. Landry. Thank you, Mr. Chairman.
    Vice Admiral, the Coast Guard has still not released a 
final rulemaking on the Automatic Identification System; is 
that correct?
    Admiral Neffenger. Yes, sir, that is correct.
    Mr. Landry. And, as you know, there are many unanswered 
questions even if it is feasible for the domestic supply 
industry to comply with the NOA regulations. Wouldn't it be 
better for the Coast Guard resources--a better use of Coast 
Guard resources and provide more certainty for the industry if 
the Coast Guard put domestic compliance with NOA on the back 
burner for now and focused on laying down the rules of the road 
as it pertains to AIS and once the AIS is tested and the Coast 
Guard finds itself needing more domain awareness, then 
returning back to notice of arrival?
    Admiral Neffenger. As I understand, sir, with respect to 
notice of arrival, what we are looking at is adding notice of 
departure requirements and then changing somewhat the 
requirements for people who would have to provide notice of 
arrival information in addition to the AIS carriage requirement 
component of that notice.
    Mr. Landry. A notice of departure. Could you explain?
    Admiral Neffenger. It would be a notice that would be 
required prior to departure from a port for a vessel so that 
you have an awareness of both the entry of the vessel as well 
as its intended departure.
    Mr. Landry. Well, what happens to the supply vessels now in 
my district that basically move around from--they leave port 
and then go from one rig to another rig to another rig and then 
back to that port again? The problem we are having is that they 
don't--when they leave, they may be detoured to go to a 
different rig. And then it is kind of like a UPS guy goes from 
house to house to house, but sometimes they may bring him a 
package sent to another house. You see what I am saying? I am 
trying to understand how a notice of departure would help.
    Admiral Neffenger. Yes, sir, I see exactly what you are 
saying. I will be honest with you. I would have to look at the 
specific rule as it applies to that. But my thinking is that it 
would be both unrealistic for us and unwieldy for us to even 
worry about those kinds of things. I mean, what we are really 
looking at is, first of all, what is a normal operation out 
there? So let me look--let me get to you with the answer 
specifically with respect to OSVs, but I don't believe that it 
would require them to report every single rig that they----
    [The information follows:]

        The Coast Guard has issued additional regulations for 
        notice of arrival (NOA) for Outer Continental Shelf 
        (OCS) activities in response to security measures as 
        required by the SAFE Port Act of 2006. This rulemaking 
        requires owners or operators of floating facilities, 
        mobile offshore drilling units, and vessels to submit 
        NOA information to the National Vessel Movement Center 
        prior to engaging in OCS activities. The amendments are 
        intended to enhance maritime security, safety, and 
        environmental protection by increasing maritime domain 
        awareness (MDA) on units and personnel engaging in OCS 
        activities. The Coast Guard published a Notice of 
        Proposed Rulemaking (NPRM) in June 2009 and made some 
        adaptations to enhance clarity based on the comments 
        received. No adverse comments were received regarding 
        the applicability to U.S. vessels, and no significant 
        impact on energy production was or is anticipated. The 
        final rule cleared DHS and OMB, was signed by the 
        Commandant of the Coast Guard on December 22, 2010, and 
        published on January 13, 2011; effective date is 
        February 14 (76 Fed. Reg. 2254).

        As noted, the Coast Guard received no adverse comments 
        pertaining to application of the rule to U.S. vessels 
        in the NPRM. However, upon publication and 
        implementation of the final rule, industry noted 
        significant concerns. In response, the Coast Guard has 
        initiated a redesign of the form used to collect the 
        data, effectively suspending enforcement, and convened 
        a working group under the partnership with the Offshore 
        Marine Service Association to specifically address the 
        design of an OCS-specific reporting form, as well as 
        alternatives to the electronic submission of an NOA. 
        The Coast Guard has made great strides towards creating 
        a process and reporting form that is both workable for 
        industry, while also providing the Coast Guard the 
        critical information it needs to maintain safety and 
        security. This form will include: creating an offline 
        option; third party vendor option; and an import 
        function so that vessels operating on the OCS have the 
        ability to copy, save, and email the required 
        information.

        The Coast Guard drafted and interprets current 
        regulations (33 CFR Part 146) to require that OSVs give 
        due notice while transiting from OCS block to OCS block 
        area, but not within a single OCS block area (i.e., 
        from rig-to-rig within a single OCS block area). This 
        requirement was intended to maximize maritime safety 
        and security, and to better protect mariners operating 
        on the OCS, by providing real-time visibility of what 
        and where vessels and personnel actually are or are 
        anticipated to be in any given area. The information 
        required to be submitted by this regulation will 
        greatly assist the Coast Guard in evaluating risk 
        associated with OCS activities and to manage 
        appropriate resources should a significant incident 
        occur (e.g., environmental or national security), and a 
        coordinated response is necessary.

        Finally, the Coast Guard is committed to working with 
        the regulated public to find a way forward, in terms of 
        policy and procedures, which will both achieve greater 
        MDA and minimize any regulatory burden.

    Mr. Landry. Because I am having a bigger problem with 
foreign-flagged vessels, OK, entering our ports and basically 
providing services in the Gulf of Mexico in a clear violation 
of the Jones Act. And so we have foreign-flagged vessels that 
if they have an AIS system and they turn it off, the Coast 
Guard just says don't do that, but then when our supply vessels 
would fail to comply with NOA, they would be fined. And so we 
basically, in my opinion, are placing a greater burden on our 
domestic fleet than we are placing on our foreign fleet. And 
yet I thought that these regulations and this rulemaking were 
made to try to get a grip on exactly who is coming in and out 
of the ports.
    Admiral Neffenger. Yes, sir, that is the reason for the 
rulemaking, is for awareness of coming in and out of the ports.
    With respect to specific actions that have been taken with 
respect to U.S.-flagged versus foreign-flagged, I would be 
happy to look into some specific concerns you have. I am not 
aware of those instances that you refer to.
    But the purpose behind AIS is specifically to understand--
or the requirement for carriage of AIS is to understand who is 
operating, how they are operating, and where they are 
operating.
    Mr. Landry. Well, but the problem is, as I see it, we are 
putting a bigger burden on our domestic fleet while we are 
letting the foreign vessels operate really without any penalty. 
And so the costs of doing business by our domestic fleet is 
raised by your regulations, and basically the cost to that 
foreign fleet hasn't changed. So then the day rates on the 
foreign-fleet vessels stay the same, and our domestic vessels 
have to raise their rates. Do you understand? You are putting a 
greater burden on our people.
    Admiral Neffenger. I don't believe that was the intention, 
sir. I would be happy to look into the detail on that. I 
don't--I am not aware of the fact that the foreign fleet is 
evading any of the same requirements if they are operating 
coming in and out of U.S. ports.
    Mr. Landry. And I appreciate that comment. I really do. 
Because the chairman was so grateful to work with us last year 
and insert language clarifying that Congress never intended NOA 
to apply to domestic vessels, and it passed the House of 
Representatives. And so my question is, do you all feel like 
the language that the House put out, an intent--and clarifying 
that intent is just something you can ignore and continue to 
move the NOA forward and apply it to domestic vessels?
    Admiral Neffenger. No, sir. Actually, I pay a lot of 
attention to congressional intent. It is how we can interpret 
what the law really means for us. So I certainly pay attention 
to the intent of Congress. It is one of the questions I ask: 
What was the intent behind the legislation that was passed and 
how do we meet that intent most effectively?
    Mr. Landry. Well, we passed that. I would like you to take 
a look at that language if you don't mind, sir.
    Thank you so very much.
    Thank you, Mr. Chairman.
    Admiral Neffenger. Thank you.
    Mr. LoBiondo. OK, thank you, Mr. Landry.
    Admiral, thank you very much. Good luck. You have got a big 
job to pull this together, and we will look forward to getting 
back with you soon.
    The committee stands adjourned.
    [Whereupon, at 10:46 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
